           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  SUPPLEMENTAL SECURITY INCOME
     RECIPIENTS WITH WAGES IN
    THE EARNINGS SUSPENSE FILE


     April 2011   A-03-10-11038




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      April 18, 2011                                                               Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Supplemental Security Income Recipients with Wages in the Earnings Suspense File
           (A-03-10-11038)


           OBJECTIVE
           To determine whether the Social Security Administration (SSA) implemented the Office
           of Quality Performance’s (OQP) recommendation to match the names and addresses
           on its payment rolls and the Earnings Suspense File (ESF) to identify unreported wages
           earned by beneficiaries/recipients. In addition, we assessed the impact of
           Supplemental Security Income (SSI) recipients’ wages on the ESF.

           BACKGROUND
           Title XVI of the Social Security Act 1 (Act) established the SSI program effective
           January 1, 1974. The SSI program is intended to be a program of last resort. It is a
           nationwide, Federal cash assistance program administered by SSA that provides a
           minimum level of income to financially needy individuals who are aged, blind, or
           disabled. To determine eligibility and compute monthly payments, SSA relies on
           beneficiary self-disclosure of income and resources. 2 Under the SSI program, a
           disabled recipient can work as long as his or her “countable earnings” are less than the
           income limit required for SSI payments.3 According to SSA, improper payments often
           occur if recipients or their representative payees fail to report timely changes in income,




           1
               Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
           2
               Program Operations Manual System (POMS), SI 02301.005
           3
             Congress has enacted many provisions to provide disabled recipients with incentives to return to work.
           Some examples are the Plan to Achieve Self-Support, Ticket to Work program, and Trial Work Period.
           SSA must consider these work incentives before determining whether earnings affect SSI eligibility. The
           income limit for SSI eligibility varies depending on the recipient’s circumstances.
Page 2 - The Commissioner


resources, and living arrangements.4 Failure to report increases or decreases in wages
is one of the primary causes for both over- and underpayments in the SSI program.

Since recipients do not always report their income and resources, SSA has a number of
initiatives to identify unreported income and resources. For example, the Agency
conducts Continuing Disability Review Enforcement Operations to compare earnings
recorded on its Master Earnings File (MEF) to the benefit rolls. In addition, SSA
conducts computer data exchanges with the Internal Revenue Service (IRS) to detect
unreported nonwage information, such as pensions, interest, and dividends.

Additionally, SSA uses the income and resources of a deemor, which is a recipient’s
ineligible spouse or parent, in determining an individual's eligibility for SSI and the
payment amount. 5 SSA considers a deemor’s income to be available for meeting an
SSI recipient’s basic needs of food and shelter.

Decentralized Correspondence

As part of the Annual Wage Reporting process, SSA attempts to match the names and
Social Security numbers (SSN) on Forms W-2, Wage and Tax Statement, that are
submitted by employers against SSA’s Numident File—the repository of all issued
SSNs. SSA posts to the MEF each Form W-2 that contains a valid name and SSN
combination. However, when the name and SSN combination cannot be matched to
SSA’s records, the wage information is posted to the ESF—the repository for
unmatched wages. SSA sends Decentralized Correspondence (DECOR) notices to
employees to help resolve the name and/or SSN discrepancies reported on the wage
reports. The correspondence provides the wage earner with information about the
reported name/SSN and wage amount and requests that the reported information be
reviewed; verified; corrected, where possible; and returned to SSA. 6

Office of Quality Performance’s Matching Process

In addition to DECOR, OQP uses other edit routines to remove items from the ESF and
posts them to the MEF. For example, OQP matches names on the payment records to
the ESF to identify wage earners. As part of this process, OQP assumes the reported
SSN is correct, and the name is manipulated and given an overall score to determine
the likelihood that a match has occurred. Our match of the SSI payment rolls and ESF
is different because we assume the SSN is not correct, and we match on the name and
address to identify the wage earner.




4
 SSA, Annual Report—Executive Order 13520, Reducing Improper Payments, May 18, 2010,
pages 7 and 8.
5
    POMS, SI 01310.001.
6
    POMS, WR 00110.001.
Page 3 - The Commissioner


Office of Quality Performance Review

In January 2004, OQP issued a report on Identifying Disabled Beneficiaries Working
Under Another Person’s Social Security Number, which evaluated a computer match
using a common address from SSA’s payment records and ESF wage reports. The
objective of the review was to determine whether the match would be effective in
detecting unreported wages of beneficiaries and recipients receiving Title II 7 or XVI
disability payments. Overall, OQP estimated that about 4,200 beneficiaries and
recipients had unreported wages for Tax Year (TY) 1999 posted to the ESF that could
have affected their benefits. OQP recommended that the Agency conduct a match of
the entire Title II and XVI payment rolls with the ESF for the most recent year of
earnings postings to identify unreported wages using the beneficiaries’ and recipients’
addresses, last names, and first initials.

SCOPE AND METHODOLOGY
To perform this review, we matched the names and addresses of Title XVI recipients
who were receiving benefits as of December 2009 against the names and addresses of
workers whose TY 2008 wages were posted to the ESF. 8 From this population, we
matched the names included in the ESF against the parent names on the Numident file
and the spouses’ names on the benefit records. We used four types of matching criteria
to determine our population.

      •   First Name, Last Name, and Address
      •   First Name and Address
      •   Last Name and Address
      •   First and Last Name of Spouse or Parent

Using an exact-match criterion and applying a wage tolerance, 9 we identified
6,882 recipients and deemors with approximately $113 million in suspended wages.
We used an exact-match criterion on the name and address fields to increase the
likelihood that the $113 million in suspended wages belonged to the 6,882 recipients
and deemors. However, we believe the population would increase significantly if SSA
were to use tolerances when matching the address field to account for data entry errors
or different spellings that generally exist in large databases. 10

7
    Social Security Act § 201 et seq. 42 U.S.C. § 401 et seq.
8
 We used the TY 2008 DECOR file because it was the most current information available at the time of
our review.
9
 We applied the $85 monthly income exclusion (general exclusion of $20 and earned income exclusion
of $65) for 12 months to identify recipients with wages greater than $1,020. See POMS, SI 00820.500.
10                                                   th
  For example, if the street address was “North 15 Street” in the payment records and tolerances were
                                                                    th
used, it would match addresses shown as “N. Fifteenth St.” or “N. 15 Street.”
Page 4 - The Commissioner


From the 6,882 records, we selected 250 sample items from the 4 categories and
referred them to SSA for development (see Table 1). See Appendices B and C for
more information about our scope, methodology, and estimation results.

                                  Table 1: Sample Population
                                                              Sample           Suspended
                    Matching Criteria                         Cases              Wages
        First Name, Last Name, and Address                      50               $534,096
        First Name and Address                                  50               $809,416
        Last Name and Address                                  100             $1,514,433
        First and Last Name of Spouse or Parent                 50             $1,167,388
                          Total                                250             $4,025,333

RESULTS OF REVIEW
SSA had not implemented OQP’s recommendation to match the names and addresses
included on its payment rolls and the ESF to identify unreported wages earned by
beneficiaries/recipients. Agency personnel could not explain why the recommendation
was not implemented other than it appeared to be an oversight. We compared the
names and addresses from the SSI payment rolls and the ESF for TY 2008 and found
recipients and deemors were working using SSNs not assigned to them, which resulted
in SSI recipients being overpaid. 11 Based on our sample of 250 cases, we found that
for 70 cases (28 percent), about $1.4 million in suspended wages was earned by SSI
recipients/deemors, resulting in 14 SSI recipients’ being overpaid about $54,000 in
benefits.

PRIOR OFFICE OF QUALITY PERFORMANCE RECOMMENDATION

In January 2004, OQP issued an evaluation report 12 in response to our prior work
related to the detection of disabled beneficiaries/recipients with wages reported under
SSNs other than those used for their benefit payments. Our report had concluded that
SSA could improve its payment safeguard activities by matching the names and
addresses from the payment files for those beneficiaries or recipients with Forms W-2
that have not been successfully associated with individual SSNs and posted to the ESF.

Using TY 1999 data, OQP identified 167,000 beneficiaries or recipients through a name
and address match between the Title II and XVI payment rolls, of which 4,200
(2.5 percent) were working and using another person’s SSN. They found the matching
criteria that included the address, last name, and first initial were most effective in
identifying beneficiaries who were working. In addition, the OQP report showed that
SSA could identify another 57,000 wage earners, remove their suspended wages from

11
  Because of the complexity of the Title XVI program, we plan to conduct a separate review to determine
the impact of suspended wages on Title II beneficiaries.
12
  SSA OQP, Identifying Disabled Beneficiaries Working Under Another Person’s Social Security Number,
January 2004.
Page 5 - The Commissioner


the ESF, and post the wages to the MEF. OQP recommended that SSA implement a
control to match its payment rolls with the ESF using the address, last name, and first
initial. Furthermore, OQP recommended a cost-benefit analysis from this 100-percent
match to determine whether SSA should establish an ongoing annual match. In
response to the report, the Offices of Public Service and Operations Support and
Disability and Income Security Programs agreed the address match would help identify
unreported wages for SSA disabled beneficiaries. Moreover, they indicated that the
ESF had been a high-profile area and efforts to reduce its size and growth were a high
priority for the Agency.

Based on our discussion with SSA staff, we learned that the Agency had not
implemented the recommendation. Agency staff could not explain why the
recommendation was not implemented other than it was an oversight. Because SSA
did not implement the match to determine whether suspended wages would affect
recipients’ benefits, we conducted a match of the SSI payment rolls and ESF records for
TY 2008. The results of our review are discussed in the next section of this report.

SAMPLE RESULTS

Of the 250 sample cases reviewed, we identified for13

•     70 cases (28 percent), SSI recipients/deemors earned about $1.4 million in
      suspended wages, resulting in 14 SSI recipients’ being overpaid about $54,000;

•     5 cases (2 percent), SSA was able to successfully reinstate about $28,000 in
      suspended wages to the correct numberholders’ earnings records;

•     54 cases (22 percent), SSA reinstated about $530,000 in suspended wages to the
      correct numberholders’ earnings records through other processes, 14 such as
      DECOR; and

•     121 cases (48 percent), SSA was not able to reinstate about $2 million in suspended
      wages because the identity of wage earners was unknown.




13
     See Appendix C for more detail about the 250 sample cases.
14
  Of the 54 cases, SSA reinstated 26 based on information from the IRS, and 28 based on the DECOR
process.
Page 6 - The Commissioner




Wages Belong to Recipients/Deemors

For 70 of our 250 sample cases, SSI recipients or their deemors failed to notify the
Agency they earned about $1.4 million in suspended wages in TY 2008. 15 Because
these individuals failed to report their work activity, SSA overpaid 14 of the 70 SSI
recipients about $54,000 in Social Security benefits. 16 For example, a minor child who
was receiving SSI was overpaid $11,014 because his father, an individual not assigned
an SSN, failed to notify SSA that he earned over $65,000 in 2008 and $28,000 in 2009.
In another case, SSA overpaid a 50-year-old woman who was receiving SSI payments
about $10,000 because she failed to notify SSA that she had been working for a dry
cleaning company in TYs 2004 through 2009.

Of the 14 cases with overpayments, 7 related to deemors who worked and were never
assigned an SSN. Therefore, unless these individuals voluntarily reported their
earnings to SSA, the Agency would not know whether their wages would affect the
recipients’ eligibility for SSI payments and the payment amounts. As shown in Table 2,
as of January 2011, SSA had collected about $1,051 for 6 of the 14 cases with
overpayments, and had initiated collection procedures for the remaining $52,960.


15
   Of the 70 cases, 62 related to deemors with approximately $1.3 million in unreported wages, and
8 related to recipients with about $38,000 in unreported wages.
16
  Of the 14 cases, 10 related to deemors with $343,000 in unreported wages, and 4 related to recipients
with about $19,000 in unreported wages.
Page 7 - The Commissioner


                               Table 2: Overpayments Collected
                                      Total             Amount          Amount
                      Cases       Overpayments         Collected        Pending
                         1             $9,997              $0            $9,997
                         2              $637               $0             $637
                         3              $129               $0             $129
                         4             $1,789              $0            $1,789
                         5             $3,464              $0            $3,464
                         6             $9,098              $0            $9,098
                         7             $1,859              $0            $1,859
                         8              $233               $0             $233
                         9            $11,014           $202            $10,812
                        10              $613            $135              $478
                        11             $2,446             $50            $2,396
                        12            $12,193           $369            $11,824
                        13              $148            $148                 $0
                        14              $391            $147              $244
                      Total           $54,011          $1,051           $52,960


SSA has indicated that recipients’ failure to report increases or decreases in wages
timely is one of the primary causes for both over- and underpayment errors in the SSI
program. 17 Therefore, based on results from the OQP study and our sample results, we
believe matching the names and addresses of SSI recipients with ESF records could
assist SSA in its efforts to reduce the amount of SSI overpayments. We believe this
process would be cost-beneficial, as we estimate SSA expended about $15,000 in labor
cost 18 for FO staff to develop the 250 sample cases and identify the $54,000 in
overpayments, which is a 3.6:1 return on investment. Focusing on the three sample
populations (first name, last name, and address; first name and address; first and last
name of spouse or parent) that included the overpayments, SSA expended about
$9,000 in labor costs to identify the $54,000 in overpayments, which is a 6:1 return on
investment.

For the remaining 56 cases, SSA staff determined that SSI recipients/deemors had
earned about $1.1 million in suspended wages. However, after applying the appropriate



17
  SSA, Annual Report—Executive Order 13520, Reducing Improper Payments, May 18, 2010,
pages 7 and 8.
18
  The estimate is based on the average salary of field office staff (that is, GS-11, step 5) and the average
processing time, which was about 105 minutes per case. The estimate does not include other costs (for
example, system costs, or overpayment recovery rate) that may have been incurred to develop the
sample cases. There may be a lower return on investment when factoring in these costs.
Page 8 - The Commissioner


income exclusions 19 and allocations, 20 SSA staff concluded that the unreported wages
did not affect the recipients’ eligibility or benefit amounts.

Other Numberholders

Based on the match of the last name and address, SSA successfully reinstated
approximately $28,000 in suspended wages to five numberholders’ earnings records.
For example, a 19-year-old woman earned about $6,000 in TY 2008. SSA posted her
wages to the ESF because her employer transposed a digit in her SSN. After
contacting the individual and confirming she had earned the wages, SSA successfully
posted the wages to her earnings record. Although the number of cases reinstated was
not significant, we believe that if SSA conducts a match of names and addresses of SSI
recipients with ESF records, it could assist SSA with its efforts to post earnings properly,
which helps ensure that numberholders receive the full retirement, survivors, and/or
disability benefits due them.

CONCLUSION AND RECOMMENDATIONS
Since SSA did not implement OQP's recommendation to match its payment rolls with
the ESF to detect unreported wages, the Agency missed an opportunity to identify
improper payments within the SSI program and reduce the size of the ESF. Based on
our sample results, we believe matching the names and addresses of SSI recipients
with ESF records could assist SSA in its efforts to reduce the amount of overpayments
in the SSI program. Therefore, we recommend that SSA:

1. Determine whether it is cost-beneficial to review the 2,400 cases from the 3 strata
   where sample cases resulted in overpayments and ascertain whether the
   suspended wages belong to recipients/deemors—and adjust recipients’ benefits as
   appropriate.

2. Based on the above analysis, periodically conduct a match of names and addresses
   from the SSI payment rolls and ESF to detect unreported wages earned by SSI
   recipients and their deemors. The match criteria should focus on first name, last
   name and address; first name and address; and first name and last name of spouse
   and parent to detect SSI overpayments. In addition, establish tolerances when
   matching the address field to account for data entry errors or different spellings that
   generally exist within large databases.




19
     POMS, SI 00820.0500.
20
     POMS, SI 01320.400;SI 01320.500.
Page 9 - The Commissioner


AGENCY COMMENTS
SSA agreed with our first recommendation and partially agreed with our second
recommendation. For recommendation number two, the Agency stated that after a
review of the cases identified in recommendation number one, it would analyze the
results and decide if it was feasible and/or cost-effective to conduct the match (see
Appendix D).




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
Act      Social Security Act
DECOR    Decentralized Correspondence
ESF      Earnings Suspense File
IRS      Internal Revenue Service
MEF      Master Earnings File
OQP      Office of Quality Performance
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSN      Social Security Number
SSR      Supplemental Security Record
TY       Tax Year
U.S.C.   United States Code
Form
W-2      Wage and Tax Statement
                                                                        Appendix B

Scope and Methodology
To accomplish our objectives, we:

•   Reviewed applicable sections of the Social Security Act, Federal regulations, and
    the Social Security Administration’s (SSA) regulations, rules, policies, and
    procedures.

•   Reviewed prior Office of the Inspector General Reports.

•   Reviewed the Office of Quality and Performance report, Identifying Disabled
    Beneficiaries Working Under Another Person’s Social Security Number,
    January 15, 2004.

•   Retrieved Supplemental Security Records (SSR) for recipients in current pay status
    as of December 2009 and Tax Year (TY) 2008 Decentralized Correspondence files.
    From these 2 files, we identified a population of 6,882 recipients and deemors with
    about $113 million in suspended wages in TY 2008. We selected a stratified
    random sample of 250 recipients from this population for review (see Appendix C for
    more details about the sample selection).

•   We referred the 250 sample cases to SSA for review on July 26, 2010 to
    (1) determine the identity of the wage earner and (2) adjust recipients’ benefit
    records, as necessary.

•   Reviewed queries from SSA’s SSR, Numident, Master Earnings File, and Online
    Retrieval System for each sample item.

We determined the computer-processed data from the SSR were sufficiently reliable for
our intended use. We conducted tests to determine the completeness and accuracy of
the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives. We conducted our audit work from April to December 2010 in
Philadelphia, Pennsylvania. The SSA entities reviewed were the Offices of the
Deputy Commissioners for Systems and Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.
                                                                                 Appendix C

Sampling Methodology and Results
To perform this review, we matched the names and addresses of Supplemental
Security Income 1 recipients who were receiving benefits as of December 2009 against
the names and addresses of workers whose Tax Year 2008 wages were posted to the
Earnings Suspense File (ESF). From this population, we matched the names included
in the ESF against the parent names on the Numident File and the spouses’ names on
the benefit records to identify deemors. We used four types of matching criteria to
determine our population.

      •   First Name, Last Name, and Address
      •   First Name and Address
      •   Last Name and Address
      •   First and Last Name of Spouse or Parent

Using an exact match criterion and applying a wage tolerance, 2 we identified
6,882 recipients and deemors with approximately $113 million in suspended wages (see
Table C-1). We used an exact match criterion on the name and address fields to
increase the likelihood that the $113 million in suspended wages belong to the
6,882 recipients and deemors. However, we believe the population would increase
significantly if SSA used tolerances when matching the address field to account for data
entry errors or different spellings that generally exist within large databases. 3 From the
6,882 records, we selected 250 sample items in total from the 4 matching categories
and referred them to SSA for development.

                                    Table C-1: Sample Population
                                                                                        Sample
                                                               Suspended              Suspended
                                               Total             Wages       Sample     Wages
             Matching Criteria               Population         (millions)   Cases     (millions)
     First, Last Name, and Address              350                 $5         50        $.5
     First Name and Address                     763                $11         50        $.8
     Last Name and Address                     4,332               $66         100      $1.5
     Name of Parent or Spouse                  1,437               $31         50       $1.2
                   Total                       6,882              $113         250      $4.0

1
    Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
2
 We applied the $85 monthly income exclusion (general exclusion of $20 and earned income exclusion
of $65) for 12 months to identify recipients with wages greater than $1,020. See Program Operations
Manual System, SI 00820.500.
3                                                   th
 For example, if the street address was “North 15 Street” in the payment records and tolerances were
                                                                    th
used, it would match addresses shown as “N. Fifteenth St.” or “N. 15 Street.”


                                                         C-1
Of the 250 sample cases reviewed, we identified for

•   70 cases (28 percent), $1.4 million in suspended wages was earned by
    recipients/deemors and resulted in 14 recipients being overpaid about $54,000 in
    benefits;

•   5 cases (2 percent), SSA was able to successfully reinstate about $28,000 in
    suspended wages to the correct numberholders’ earnings records;

•   54 cases (22 percent), SSA previously reinstated about $530,000 in suspended
    wages to the correct numberholders’ earnings records through other processes,
    such as Decentralized Correspondence; and

•   121 cases (48 percent), SSA was not able reinstate about $2 million in suspended
    wages because the identity of the wage earners was unknown.

                       Table C-2: Summary of Sample Cases
                                            Total        Number        Amount
                                           Sample          of             of
              Type of Case                 Cases     Overpayments    Overpayments
                           First Name, Last Name, and Address
    Recipient                                 7            3            $10,763
    Deemor                                    5            1            $1,789
    Other Numberholder                        0            0              $0
    Reinstated by Other Processes            24            0              $0
    Unknown                                  14            0              $0
                   Total                     50            4            $12,552
                                  First Name and Address
    Recipient                                 1            1            $3,464
    Deemor                                    4            2            $10,957
    Other Numberholder                        0            0              $0
    Reinstated by Other Processes             3            0              $0
    Unknown                                  42            0              $0
                   Total                     50            3            $14,421
                                  Last Name and Address
    Recipient                                 0            0               $0
    Deemor                                    7            0               $0
    Other Numberholder                        5            0               $0
    Reinstated by other processes            24            0               $0
    Unknown                                  64            0               $0
                   Total                     100           0               $0




                                          C-2
                                      Total       Number         Amount
                                     Sample          of            of
          Type of Case                Cases    Overpayments   Overpayments
                       Spouse and Parent (Deemor) Name
Recipient                               0            0            $0
Deemor                                 46            7          $27,038
Other Numberholder                      0            0            $0
Reinstated by Other Processes           3            0            $0
Unknown                                 1            0            $0
              Total                    50            7          $27,038
                              Total Sample Cases
Recipient                               8            4          $14,227
Deemor                                 62           10          $39,784
Other Numberholder                      5            0            $0
Reinstated by Other Processes          54            0            $0
Unknown                                121           0            $0
           Grand Total                 250          14          $54,011




                                   C-3
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      April 5, 2011                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Supplemental Security Income Recipients with
           Wages in the Earnings Suspense File” (A-03-10-11038)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Chris Molander at (410) 965-7401.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “SUPPLEMENTAL SECURITY INCOME RECIPIENTS WITH WAGES IN
THE EARNINGS SUSPENSE FILE” (A-03-10-11038)


Thank you for the opportunity to review the subject report. We offer the following response to
your recommendations:

Recommendation 1

Determine if it is cost beneficial to review the 2,400 cases from the three strata where sample
cases resulted in overpayments, and ascertain whether the suspended wages belong to
recipients/deemors—and adjust recipients’ benefits as appropriate.

Response

We agree. On March 24, 2011, you provided us with detailed information on all 2,400 cases and
we will review them.

Recommendation 2

Based on the above analysis, periodically conduct a match of names and addresses from the
Supplemental Security Income (SSI) payment rolls and the Earnings Suspense File (ESF) to
detect unreported wages earned by SSI recipients and their deemors. The match criteria should
focus on First Name, Last Name and Address; First Name and Address; and First Name and Last
Name of Spouse and Parent to detect SSI overpayments. In addition, establish tolerances when
matching the address field to account for data entry errors or different spellings that generally
exist within large databases.

Response

After we complete our review of the cases you identified, we will analyze the results and decide
whether it is feasible and/or cost effective to conduct the match.




                                               D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Cylinda McCloud-Keal, Director, Philadelphia Audit Division
   Carol Madonna, Audit Manager

Acknowledgments

In addition to those named above:

   Walter Mingo, Senior Auditor
   David Domzalski, Auditor
   Michael Brooks, Auditor
   Richard Devers, IT Specialist

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-03-10-11038.
                            DISTRIBUTION SCHEDULE


Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                     Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of
Investigations (OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations
(OER), and Office of Technology and Resource Management (OTRM). To ensure compliance with
policies and procedures, internal controls, and professional standards, the OIG also has a comprehensive
Professional Responsibility and Quality Assurance program.
                                            Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs
and operations and makes recommendations to ensure program objectives are achieved effectively and
efficiently. Financial audits assess whether SSA’s financial statements fairly present SSA’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs and operations. OA also conducts short-term management reviews and
program evaluations on issues of concern to SSA, Congress, and the general public.
                                       Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and
operations. This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA
employees performing their official duties. This office serves as liaison to the Department of Justice on
all matters relating to the investigation of SSA programs and personnel. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.
                        Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Also, OCIG administers the Civil Monetary Penalty program.
                                    Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news
releases and in providing information to the various news reporting services. OER develops OIG’s media
and public information policies, directs OIG’s external and public affairs programs, and serves as the
primary contact for those seeking information about OIG. OER prepares OIG publications, speeches, and
presentations to internal and external organizations, and responds to Congressional correspondence.
                       Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also
coordinates OIG’s budget, procurement, telecommunications, facilities, and human resources. In
addition, OTRM is the focal point for OIG’s strategic planning function, and the development and
monitoring of performance measures. In addition, OTRM receives and assigns for action allegations of
criminal and administrative violations of Social Security laws, identifies fugitives receiving benefit
payments from SSA, and provides technological assistance to investigations.
